Department of Health and Human Sefices    –
        OFFICE OF
 ‘ INSPECTOR GENERAL




MEDICARE CARRIERS’ POLICIES FOR
    TRANSCWNIAL DOPPLERS:
      A NEW TECHNOLOGY




            MARCH 1993   oEI-03-91-m951
              EXECUTIVE                          SUMMARY

PUIiiOSE

This report reviews Medicare carriers’ coverage policies for transcranial   dopplers, a
new technology.

BACKGROUND

Transcranial doppler (TCD) is a noninvasive ultrasound technique that measures
blood flow velocities in the major arteries in the skull. The TCD technology was
introduced in 1982.

The Health Care Financing Administration (HCFA) contracts with private insurance
organizations, called carriers, to make Medicare coverage determinations and disburse
payments. When HCFA issues policy guidance on a new technology, carriers are
required to follow it. When no guidance is provided, each carrier establishes its own
coverage policies.

Carriers use the HCFA Common Procedure Coding System (HCPCS) to reimburse
Medicare Part B services, including physician services. The HCPCS is based on the
Current Procedural Terminolo’~ (CPT) coding system, which was developed by the
American Medical Association (AMA) in 1966 and updated annually. Effective
January 1, 1992, two new CPT codes were established for TCD services. Physicians
use the new codes to claim Medicare reimbursement for TCD tests performed on or
after that date.

In a related study (“Medicare Carrier Assessment of New Technologies,” 0EI-Ol-88-
00010), we found inconsistencies in carrier coverage and pricing decisions and a
significant need for HCFA guidance involving new technologies. We recommended
HCFA improve its ability to identi~ emerging technologies and make more consistent
coverage decisions for new technologies.

METHODOLOGY

In late 1991, we reviewed earners’ coverage policies and guidelines for TCDS. In early
1992, we recontacted those carriers that did not cover TCDS in 1991 to determine if
they had changed their policies, and, if SO,what had influenced their decisions. We
also obtained payment information for the two TCD procedure codes for the first
quarter of 1992 from the Part B Extract Summary System (BESS) file. We obtained
technical and clinical information on TCDS from medical literature, professional
provider organizations, and individual physician experts.




                                             i
                      TABLE                   OF CONTENTS

EX&UTIVE          SUMMARY



INTRODUCI’ION . . . . . . . . . . . . . . . . . . ..-.....--...-...=...====..===-                                       1




    Carrier Coverage Policies . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ..-00.0-003

    Carrier Payments . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ..0000003

    Influence ofCPTCodes             . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ..=-   ==..4

    HCFAEfforts         . . . . . . . . . . . . . . . . . . . .- . . . . . . . . . . . . . . ..=.   ======--==5



RECOMMENDA~ON                  . . . . . . . . . . . . . ..-..............-...=--=-==--                           -=’7



COMMENT S. . . . . . . . . . . . . . . . . . . . . * * . . =- . * -- * =* - * . ==- * * - **=-*-.*-                     8



APPENDIXA           AmerkanAcademyofNeurologyEWitbkhed                andliwestigational
                    Uses ofTranscranial Dopplers . . . . . . . . . . . . . . . . . . . . . . . ..A-1
                          INTRODUCTION
P~OSE

This report reviews Medicare carriers’ coverage policies for transcranial   dopplers, a
new technology.

BACKGROUND

Transcranial doppler (TCD) is a noninvasive ultrasound technique which measures
circulation in the major arteries inside the skull. First introduced in 1982, the TCD is
used to determine changes in blood flow velocity. Increased velocity generally
indicates a narrowed blood vessel.

The test is done with a hand-held instrument which transmits ultrasonic energy from a
probe to a point inside an artery in the brain. Some of the energy is reflected back to
the probe. It is then analyzed, displayed on a monitor, and recorded graphically.

According to the American Academy of Neurology’s Repoti of the Z?zerapeutics and
Technology Assessment Committee, TCD has a number of established and
investigational uses. Their March 1990 report lists five conditions for which TCD is of
established value, including detecting severe stenosis in the intracranial arteries. See
Appendix A for a complete list of uses.

The Health Care Financing Administration (HCFA) contracts with private insurance
organizations, called carriers, to make Medicare coverage determinations and disburse
payments in a local service area. When HCFA issues policy guidance on a new
technology, carriers are required to follow it. When such guidance is not offered, each
carrier makes its own coverage determinations.   Claims for new or unusual devices,
tests, procedures, or treatment modalities can present serious coverage issues.

Carriers use the HCFA Common Procedure Coding System (HCPCS) to reimburse
for Medicare Part B selvices, which includes physician and outpatient semices. The
HCPCS is based on a coding system maintained in the Physicians’ Current IYocedural
Te~ino20gy (CPT) Manual. The American Medical Association (AMA) developed
CPT codes in 1966 and publishes annual updates.

Effective January 1, 1992, the AMA established two new codes to represent TCD
semices. Physicians and other providers of semices use the new codes to claim
Medicare reimbursement for TCD tests performed on or after that date. First quarter
1992 allowances nationally for the two codes approached $580,000.

The Medicare Carriers Medical Directors New Technology Workgroup and HCFA’S
Coverage and Payment Technical Advisory Group are two entities which evahate new
technologies for the Medicare program. Composed of medical directors from six



                                             1
carriers, the New Technology Workgroup meets periodically to research new
technologies and make recommendations to HCFA as well as other carriers. The
HCFA’S Coverage and Payment Technical Advisory Group consists of 10 carrier
medieal directors who recommend policy decisions on various issues, including new
technologies, to HCFA’S Bureau of Policy Development.

In a related study (“Medicare Carrier Assessment of New Technologies,” 0E1-01-88-
00010), we found (1) a significant need for HCFA guidance to carriers on new
technologies, and (2) earner inconsistencies in coverage and pricing decisions involving
new technologies. We recommended that HCFA improve its own capability and that
of the carriers to identi~ emerging technologies and to make more informed, explicit,
and consistent coverage decisions concerning new technologies.

In its comments on the earlier report, HCFA recognized that problems exist with
carriers’ assessment of new technologies and noted that it had taken several initiatives
to improve technology assessment. The HCFA was concerned that our findings, at
least in part, were no longer valid because of its efforts. It asked the Office of
Inspector General to conduct another study to assess the effectiveness of its initiatives.
We plan to conduct such a study in the fiture. The current report sheds light on the
larger picture by providing a case study of how coverage and payment policies are
made for new technologies.

METHODOLOGY

In late 1991, we contacted 36 Medicare carriers      representing 58 geographical
jurisdictions to obtain their coverage guidelines   and policies for TCDS. (Some carriers
service more than one jurisdiction.) Responses      were received from carriers
representing 56 jurisdictions. In this report, we   refer to the jurisdictions as carriers.

During the first quarter of 1992, we recontacted the carriers that did not cover TCDS
in 1991 to determine if they had changed their policies. If the carriers had changed
their coverage policies, we asked what influenced their decisions. We also obtained
payment information for the two TCD procedure codes for the first quarter of 1992
from the Part B Extract Summary System (BESS) file.

We obtained technical and clinical information from medical literature, physician
experts, and professional organizations, including the Medicare Carriers Medical
Directors New Technology Workgroup, HCFA’S Coverage and Payment Technical
Advisory Group, the American Academy of Neurology, the American Society of
Neuroimaging, the Intersocietal Commission for Accreditation of Vascular
Laboratories, and the American Institute of Ultrasound in Medicine.

C)ur review was conducted in accordance with the Interim Standards for hspections
issued by the President’s Council on Integrity and Efficiency.




                                             2
                                FINDINGS
Carriers’ coverage policies for transcrankd dopplers are inconsistent.

Carriers’ coverage decisions are not uniform, despite the fact that some carriers have
provided for payment since 1988. Currently, 40 of 56 carriers cover TCD tests.
Several carriers not covering TCD tests consider their use investigationaL

The 40 earners which cover TCDS differ on the conditions required for payment. Half
(19 of 40) have no specific coverage criteria. Essentially, payment is made for any
TCD claim submitted. The 19 carriers with no specific guidelines allowed $188,200
while the 21 carriers with specific coverage criteria allowed $157,278.

Twenty-one of 40 carriers covering TCDS make payment decisions based on certain
conditions or criteria. Fifteen (of 21) carriers base their criteria on the American
Academy of Neurology (/lAN) position paper, which identifies 5 conditions for which
TCDS have established value (see Appendix A). The remaining six carriers make
determinations on an individual basis.

This lack of consistency among the carriers exists even though TCD technology has
been on the market for several years. At least two carriers have covered TCDS since
1988, and four others began coverage in 1989. Five of the six carriers still have no
specific criteria. In fact, nearly half of the 25 earners that covered TCDS as of 1991
did not have any specific criteria for coverage.     This inconsistency corroborates our
previous study in which one-third of the carriers stated that, as a group, they are
minimally consistent in making coverage decisions about new technologies.

As we stated in our earlier report entitled “Medicare Carrier Assessment of New
Technologies”:

       Since each of the earners interprets the meaning of demonstrated value
       and general use within its service area, coverage decisions can and do
       vary, reflecting differences in local practice patterns. These variations
       are of concern to some carrier representatives who feel that health care
       has become “a much more uniform process nationally than it was in 1965
       when Medicare was enacted.” One of the medical directors obsemes,
       “the idea of local practice patterns that was accurate 20 to 30 years ago
       no longer applies today.” The carriers are looking for more coordination
       --some even say uniformity--in coverage decisions.

Some carriers pay for transcranial dopplers despite noncoverage policies.

Although 16 carriers advised us that they do not cover TCD tests, BESS statistics for
the first quarter of 1992 disclosed a total of more than $200,000 in allowances for 10
of the 16 carriers. Total carrier allowances ranged from $254 (Nevada) to $100,000



                                            3
(Washington). We contacted these carriers during the first quarter of 1992, with all of
the contacts occurring in late February or later. At that time, carrier representatives
informed us that their policies prohibited payment for TCDS. Since the BESS data
was unavailable at the time we spoke to these carriers, we were unable to verig the
BESS data with the carriers.

New CPT codes influenced carriers’ coverage decisions for transcrankl dopplers.

Prior to January 1, 1992, 31 (of 56) carriers did not cover TCDS. Half (15 of 31)
reversed their noncoverage determinations on or after January 1, 1992, following the
introduction of CPT codes representing TCD tests. Twelve of the 15 carriers-­
according to contacts with 8 medical directors and 7 personnel at a supervisory or
managerial level--cited the new CPT procedure codes as an influence in changing their
coverage decisions. Seven carriers based the reversals solely on the new codes.

The creation of a CPT code does not mean a procedure is automatically covered
under Medicare, although it could signi~ a growing acceptance of the service. It is
HCFA’S responsibility to determine if a procedure will be covered. However, when
HCFA does not make a determination, carriers establish coverage policies
independently.  For TCDS, carriers were clearly influenced in their coverage decisions
by the creation of the new CPT codes. “Physicians increase the pressure on us to
cover a service when new codes are established,” one medical director said.

A few carriers also mentioned provider requests, new in-house coverage policies,
relative value unitsl (even though this payment system is designed to correct
reimbursement inequities rather than influence coverage policies), and the Medicare
Carriers Medical Directors New Technology Workgroup as influencing their decisions
to provide coverage.

Despite the fact that the Workgroup concurred with the recommended uses outlined
by the AAN in December 1991, carriers mentioned the new CPT codes as the reason
for changing TCD coverage decisions more often than the Workgroup. (The
Workgroup’s recommendations are advisory only. Carriers still have the option to
grant or deny coverage.)

Prior to the creation of the new CPT codes, the 25 carriers who covered TCDS used
existing codes to process claims. While codes varied by carrier, over half used CPT-4
codes 93850 and 93860 (noninvasive studies of cerebral arteries other than carotid) or
code 93799 (other procedures unlisted) for claims processing. Because these codes
encompassed studies other than TCDS, we were not able to identi~ the frequency of
TCD services.



     1 The relative value unit (RVU) represents the value of a unit of physician work to
deliver a specific medical semice in relation to the value of other medical services.
Medicare uses the RVU to calculate reimbursement.


                                           4
Our previous study on new technologies revealed carrier vulnerabilities in identifying
claims involving such techniques, especially when billed under existing codes. A new
technology billed under an established procedure code would not be recognized as
new but would be paid as submitted.

A carrier’s failure to recognize a new technology can lead to problems for
beneficiaries, physicians, the health care indust~, and program administrators. Any
Medicare payments, of course, are subject to recovery. However, if not corrected
promptly, such incorrect payments create an erroneous impression that Medicare now
pays for the new technology.

The HCFA efforts to update the coverage process and improve communications with
carriers do not appear to have resolved problems with carriers’ coverage of this
technology.

Our review of TCD policies indicates HCFA’S efforts to update the coverage process
and improve communications with carriers do not appear to have solved the problems
with carriers’ assessment of this new technology. We found that carriers still have
conflicting or non-existent coverage policies for TCDS even though some carriers have
been paying for it since 1988.

The inconsistent coverage policies may prevent Medicare payments for appropriate
tests and allow payments for inappropriate tests. According to some experts, carriers
may be paying for inaccurate, unnecessary, or inappropriate TCD tests. Concerns
about the accuracy of TCD tests were raised by experts, providers, and professional
organizations, and supported by pertinent literature.

In response to our earlier report, HCFA mentioned several initiatives they had
undertaken to improve communications with earners. These include:

b     Publishing a proposed rule in the Federal Register which describes the coverage
      process in detail and which makes explicit the criteria that are to be applied
      when making coverage decisions.

E      Requiring carriers to submit a copy of all medical coverage policies to identify
       carriers with widely variant policies.

P      Requiring carriers to have licensed physicians as medical directors,

b      Holding annual Medical Directors’ Conferences with time devoted to new
       technology assessments.




                                            5
      Discussing both emerging technology and coverage issues with HCFA’S
      Coverage and Payment Technical Advisory Group, which includes selected
      physicians from earners and HCFA.

      Providing significant pricing guidelines to carriers on new technology.

The TCD experience suggests that these initiatives have not been successful in
eliminating problems with assessment and coverage for this new technology. The
proposed rule has yet to be finalized.




                                           6
                   RECOMMENDATION
In our earlier study entitled, “Medicare Carrier Assessment of New Technologies,” we
identified two primary problem areas: (1) a need for HCFA to provide guidance on
new technologies, and (2) inconsistent carrier policies. Our findings regarding TCD
technology mirror our conclusions in the earlier study.

We therefore recommend that HCFA continue its efforts to review, coordinate, and
guide earner coverage policies of this and other new technologies.




                                          7
                            COMMENTS

The-Assistant Secretaxy for Planning and Evaluation concumed with the report. we
recehed no comments from HCFA.




                                         8
                               APPENDIX                      A

      *

           AMERICAN ACADEMY OF NEUROLOGY POSITION ON TCD



In March 1990, the Therapeutics and Technology Assessment Subcommittee of the
American Academy of Neurology (AAN) released a position paper delineating the
established and investigational uses of TCD.

Established uses of TCD:

1.	       Detecting severe stenosis (greater than 65 percent) in the major basal
          intracranial arteries.

2.	       Assessing patterns and extent of collateral circulation in patients with known
          regions of severe stenosis or occlusion.

3.	       Evaluating and following patients with vasoconstriction     of any cause especially
          after subarachnoid hemorrhage.

4.	       Detecting arteriovenous     malformations   and studying their supply arteries and
          flow patterns.

5.	       Assessing patients with suspected brain death.

hvestigational uses of TCD:

1.        Assessing patients with migraine.

2.        Monitoring during cerebral endarterectomy, cardiopulmonary bypass and other
          cerebrovascular and cardiovascular interventions, and surgical procedures.

3.        Evaluating patients with dilated vasculopathies     such as fusiform aneurysms.

4.        Assessing autoregulation,    physiologic, and pharmacologic   responses of cerebral
          arteries.

5.        Evaluating children with various vasculopathies     such as sickle cell disease, moya
          moya, and neurofibromatosis.




                                                A -1

Department of Health and Human Services

        OFFICE OF
   INSPECTOR GENERAL




MEDICARE CARRIERS’ POLICIES FOR
    TRANSCRANIAL DOPPLERS:
      A NEW TECHNOLOGY
                       OFFICE OF INSPECTOR GENERAL

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department   of Health and Human Services’ (HHS)
programs as well as the health and welfare of beneficiaries served by those programs. This
statutory mission is carried out through a nationwide network of audits, investigations, and
inspections conducted by three OIG operating components: the Office of Audit Sewices, the
Office of Investigations, and the Office of Evaluation and Inspections. The OIG also informs
the Secretary of HHS of program, and management problems, and recommends courses to
correct them.

                           OFFICE OF AUDIT SERVICES

The OIG’S Office of Audit Services (OAS) provides all auditing services for HHS, either by
conducting audits with its own audit resources or by overseeing audit work done by others.
Audits examine the performance of HHS programs and/or its grantees and contractors in
carrying out their respective responsibilities and are intended to provide independent
assessments of HHS programs and operations in order to reduce waste, abuse, and
mismanagement and to promote economy and efficiency throughout the Department.

                           OFFICE OF INVESTIGATIONS

The OIG’S Office of Investigations (01) conducts criminal, civil, and administrative
investigations of allegations of wrongdoing in HHS programs or to HHS beneficiaries and of
un@st enrichment by providers. The investigative efforts of 01 lead to criminal convictions,
administrative sanctions, or civil money penalties. The 01 also oversees State Medicaid fraud
control units which investigate and prosecute fraud and patient abuse in the Medicaid program.

               OFFICE OF EVALUATION                    AND INSPECI’’IONS

The OIG’S Office of Evaluation and Inspections (OEI) conducts short-term management and
program evaluations (called inspections) that focus on issues of concern to the Department,
the Congress, and the public. The findings and recommendations contained in these inspection
reports generate rapid, accurate, and up-to-date information on the efficiency, vulnerability,
and effectiveness of departmental programs.

This report was prepared under the direction of Joy Quill, the Regional Inspector General for
the Office of Evaluation and Inspections, and Robert A. Vito, Deputy Regional Inspector
General, Office of Evaluation and Inspections, Region III. Participating in this project were
the following people:

REGION                                                        HEADQUARTERS

Robert A. Katz, Project Leader                                Wayne Powell
Eileen E. Silk                                                Brian Ritchie
Cynthia R. Hansford


To obtain a copy of this report, call the I?hiladelPhia llegional Office at (215) 596-0607.
